CERTIFICATE OF SERVICE

I Hamid Reza Redan eh

hereby certify and; swear under the

pains and penalty of perjury that I mailed a true and correct
original or copy of the following: Ihe Pe h lion

Fr Re hearting of

de/ncded the Pe/i /ion Re a cueil of CeelioeaR] of hhe Cage
2R-GP77 package of ISpac^e^.

By United States First Class Postal Service in an envelope

Addressed to: CleRp of /he Si/fiRe/VR Coufti of /he Unifad f/a/es.
Supecme Judicial CouJ For the .Conn;* weal/h QfMaisachu<M<-.
Single Justice of /he Supreme judicial Count*
Massachusetts fjfaoRney General,
CleRk of/he Middlesex baoeRioR Gu^/,

.

C/eR.k of the Seock fan bis inic i Cnunt._____
Scofi Mciean R/tc>Rney foe Hie BcidciGoJaleR Ufa fa Ho sor fa L

On this

OS

Of

April

:in the year 202/,

Signed pursuant to 28 U S C 1746 under penalty of perjury under
the laws of the United States of America that the fotegoing is
true and correct.

Date 04/05 m21

Respectfully Submitted

Warn id fez a Redan eh

By Hamid Reza Ardaneh

1

14 of I 4*

